App. 1
NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a),
prohibits courts and parties from citing or
relying on opinions not certified for publica­
tion or ordered published, except as specified
by rule 8.1115(b). This opinion has not been
certified for publication or ordered published
for purposes of rule 8.1115.
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION TWO
LARRY J. HUDACK,
Plaintiff and
Appellant,

E070144

v.

(Super.Ct.No. RIC1724414)
LA CRESTA PROPERTY
OPINION
OWNERS ASSOCIATION,
(Filed Jul. 2, 2019)
et al.,
Defendants and
Respondents.
APPEAL from the Superior Court of Riverside
County. Randall S. Stamen, Judge. Affirmed in part; re­
versed in part.
Larry J. Hudack, in pro. per., for Plaintiff and Ap­
pellant.

App. 2
Whitney & Michael and Constance Trinh, for De­
fendant and Respondent LaCresta Property Owners
Association.
Gregory P. Priamos, County Counsel, James E.
Brown, and Bruce G. Fordon, Deputy County Counsel,
for Defendant and Respondent County of Riverside.
Larry Hudack (Hudack) brought an action against
the County of Riverside (the County), the La Cresta
Property Owners Association (the Association), Wayne
Siggard (Siggard), and others (1) to set aside a prior
judgment, and (2) for equitable relief. The County and
the Association filed anti-SLAPP motions. (Code Civ.
Proc., § 425.16.T The trial court granted the two antiSLAPP motions and entered judgments of dismissal.
Hudack raises four arguments on appeal: (1) the
trial court lacked authority to consider an anti-SLAPP
motion. (2) the trial court’s order lacks legal precedent;
(3) the trial court misunderstood the law; and (4) the
trial court failed to follow legal procedures. We reverse
in part and affirm in part.
FACTUAL AND PROCEDURAL HISTORY
A. PLEADING
1. COMPLAINT
Hudack initiated the trial court action by filing a
document captioned “Independent Action in Equity to
1 All further statutory references are to the Code of Civil Pro­
cedure unless otherwise indicated.
>

App. 3
Set Aside Judgments From RIC450529 and for Equita­
ble Relief.” (All caps and boldface omitted.) In the first
sentence of the document, Hudack wrote, “This is a
collateral attack on void judgments from Riverside
County case RIC450529.” We understand Hudack’s
pleading to be a complaint in equity. Accordingly, we
will refer to the document as “the complaint.”
2. UNDERLYING LAWSUIT
“In May 2006, Siggard owned a ten-acre vacant
parcel of land adjacent to [Hudack’s] property.” Siggard’s
property was within the Association’s boundaries. Hu­
dack and Marianne S. Hudack (Wife) sued Siggard
for grading that Siggard performed. Hudack alleged
the grading harmed Hudack’s property and that it was
illegally performed. Hudack sued the County for alleg­
edly failing to comply with the California Environmen­
tal Quality Act (CEQA). Hudack sued the Association
for failing to enforce its covenants, conditions, and re­
strictions (CC&Rs) that prohibited Siggard’s grading.
3. ALLEGATIONS AGAINST THE ASSOCI­
ATION
In the complaint in the instant case, Hudack al­
leged that in the prior lawsuit, the Association “grossly
misrepresented [Hudack’s] breach of fiduciary duty
claims and a ruling made by Judge Schwartz. The
[Association] fraudulently described the fiduciary duty
claims as being directed at insurance, vehicle control,
and providing documents to new property owners.” The

App. 4
Association’s “misrepresentation resulted in the [trial
court] striking [Hudack’s] Seventh Cause of [A]ction of
breach of fiduciary duty against the [Association] .”
Also in the complaint in the instant case, Hudack
alleged that in the prior lawsuit the Association fraud­
ulently asserted it was entitled to attorney’s fees.,Hudack
asserted the Association was not entitled to attorney’s
fees because the Association lacked a common area
and therefore has no legal basis to claim attorney’s fees
as a common interest development. Because the Asso­
ciation “fraudulently asserted a right to legal fees and
by virtue of their extrinsic fraud the award of fees is
void.” On February 14, 2014, Hudack stipulated to pay
the Association $80,294.17 and to pay the Association’s
attorney $817,840.82. Hudack asserted he is entitled
to the return of $898,134.99.
4. ALLEGATIONS AGAINST THE COUNTY
In the prior lawsuit, Hudack prevailed on his
CEQA cause of action against the County. In the cur­
rent complaint, Hudack alleged the County opposed an
award of legal fees to Hudack “based on fraudulent
claims that ‘The Hudacks and Siggard and neighbors
each owning contiguous ten acre lots valued at over
$2,000,000. [The County] knew and was in possession
of county records that demonstrated that the former
Siggard parcel was sold at a price of $150,000 and that
[Hudack’s] adjoining parcel was purchased for $150,000.
[f] [The County], by making fraudulent misrepre­
sentations, was shifting the proportionality balance to

App. 5
create the appearance that the legal fees requested
were trivial. [The County] also knew that the entire
CEQA cause of action could have been avoided entirely
if [the] County had simply agreed to comply with
CEQA and perform that act they were eventually or­
dered to perform—vacate Siggard’s exemption.”
5. ALLEGATIONS CONCERNING JURIS­
DICTION
Judge Dallas Holmes retired in 2008. In 2010, Judge
Holmes presided over the prior case ofHudack v. Siggard
(Super. Ct. Riverside County, case No. RIC450529),
which also included the County and the Association. In
the current complaint, Hudack alleged, “Judge Holmes
was an inactive member of the State Bar not qualified
to serve as a temporary judge. [1] Holmes did not
disclose to the parties that he was appointed as a tem­
porary judge and [Hudack] did not stipulate to his pre­
siding.”
Hudack alleged the judgment in the underlying
case was facially void because (1) Judge Holmes was
not a judge or an active member of the California State
Bar; (2) Judge Holmes did not disclose that he was
a retired judge; and (3) Hudack did not stipulate to
Judge Holmes presiding over the case.
Hudack asserted “Holmes’ daughter-in-law was
a partner in his prior firm [citation], that regularly
represented [the County], also a defendant in the un­
derlying case. That gave the appearance of a possible
conflict of interest.” Hudack’s attorney in the underlying

App. 6
case challenged Judge Holmes for cause, but Judge
Holmes interrupted the attorney and declined to re­
cuse himself. Hudack alleged that the issue of Judge
Holmes’s disqualification should have been heard by a
second judge. (§ 170.3, subd. (c).)
6. PRAYER FOR RELIEF
In the instant case, Hudack requested the trial
court “find the judgments and verdicts in RIC450529
are void.” Hudack further requested that the Asso­
ciation and its attorney be required to pay Hudack
$898,134.99 plus interest, and that the County be or­
dered to pay the legal fees associated with the CEQA
cause of action from the prior lawsuit, which Hudack
had previously demanded.
B. MOTIONS AND HEARING
The County and the Association filed anti-SLAPP
motions. (§ 425.16.) The County’s anti-SLAPP motion
is not included in the record on appeal. Hudack op­
posed the motions, but his oppositions are not included
in the record on appeal.
On March 6, 2018, the trial court held a hearing
concerning the Association’s anti-SLAPP motion. At
the hearing, Hudack argued, “I filed a collateral attack
on void judgments for alleging the judgments in the
underlying case were void.” Hudack continued, “This
Court has only one question to answer, and that is:
Are the judgments in the underlying case void[?] The

App.7
procedure is well established by law for you to make
that decision.”
Hudack concluded, “At any event, my complaint is
not a SLAPP suit. A SLAPP suit is an action in law
seeking compensation or damages. Mine is an action
in equity asking the Court to set aside [the jvoid judg­
ments, and asking the Court to grant equitable relief.”
The Association argued that Hudack brought a
lawsuit based upon conduct that “stems entirely from
statements and arguments made by [the Association]
during court proceedings, and such litigation-related
speech is expressly protected by the anti-SLAPP stat­
ute as protected activity.”
The trial court found the complaint alleged con­
duct that was protected by the anti-SLAPP statute be­
cause the complaint concerned the Association’s conduct
in the prior lawsuit. (§ 425.16, subd. (e)(1).) The trial
court found Hudack failed to demonstrate a likelihood
of prevailing on the complaint because Hudack did
not present any admissible evidence. (§ 425.16, subd.
(b)(1).) The trial court granted the Association’s antiSLAPP motion.
On March 27, the trial court held a hearing on the
County’s anti-SLAPP motion. A reporter’s transcript of
the hearing is not included in the record on appeal. The
trial court granted the County’s anti-SLAPP motion.
(§ 425.16.) The judgment of dismissal related to the
County reflects Hudack failed to provide any admissi­
ble evidence to demonstrate a probability of prevailing.

App. 8
DISCUSSION

A. LAW AND STANDARD OF REVIEW
“The anti-SLAPP statute does not insulate defend­
ants from any liability for claims arising from the pro­
tected rights of petition or speech. It only provides a
procedure for weeding out, at an early stage, meritless
claims arising from protected activity. Resolution of an
anti-SLAPP motion involves two steps. First, the de­
fendant must establish that the challenged claim
arises from activity protected by section 425.16. [Cita­
tion.] If the defendant makes the required showing, the
burden shifts to the plaintiff to demonstrate the merit
of the claim by establishing a probability of success.
[Our high court'has] described this second step as a
‘summary-judgment-like procedure.’”(Baral u. Schnitt
(2016) 1 Cal.5th 376,384-385 (Baral).) We apply the de
novo standard of review. (.Flatley v. Mauro (2006) 39
Cal.4th 299, 325.)
B. TWO TYPES OF COLLATERAL ATTACK
“A judgment of a court of general jurisdiction can
only be set aside on collateral attack if the judgment is
void on the face of the record. [Citation.] A judgment is
void on its face when the invalidity appears on the
judgment roll.” (F.E.V. v. City of Anaheim (2017) 15
Cal.App.5th 462, 471 (F.E.V.).) The judgment roll in­
cluded items such as the pleadings and jury verdict.
(§ 670, subd. (b).)
“In limited situations, a party may seek equitable
relief from a final judgment that is not void on its face.

App. 9
To obtain equitable relief from a judgment, a party
must prove the judgment was the product of extrinsic
fraud, meaning ‘“a party has been denied by his op­
ponent or otherwise an opportunity to be heard or to
fully present a claim or defense. » 5 V (.F.E.V., supra, 15
Cal.App.5th at p. 471.)
C. PROTECTED ACTIVITY
We examine whether the complaint concerns a
protected activity. A protected activity includes “any
written or oral statement or writing made before a leg­
islative, executive, or judicial proceeding, or any other
official proceeding authorized by law.” (§ 425.16, subd.
(e)(1).)
1.

EQ UITY: THE ASSOCIATION

In the complaint, Hudack alleged the Association
“fraudulently described the fiduciary duty claims” to
the trial court during the prior case, which resulted in'
the trial court striking Hudack’s breach of fiduciary
duty cause of action in the underlying case. Hudack
further alleged the Association “fraudulently asserted
the [Association] was entitled to legal fees.
Hudack’s allegations against the Association con­
cerned the Association’s statements to the court in the
prior case. Thus, the allegations involved statements
made during a judicial proceeding. As a result, Hu­
dack’s allegations against the Association concern a
protected activity. (§ 425.16, subd. (e)(1).)

App. 10
2.

EQUITY: THE COUNTY

In the complaint, Hudack alleged the “County’s op­
position to CEQA legal fees was based on fraudulent
claims.” Hudack’s allegations concerned statements
made to the court during the prior case. Therefore, the
allegations involve statements made during a judicial
proceeding. As a result, Hudack’s allegations against
the County concern a protected activity. (§ 425.16, subd.
(e)(1).)
3.

JURISDICTIONAL DEFECTS

In the complaint, Hudack alleged various jurisdic­
tional defects mostly relating to Judge Holmes being
a retired jurist and having an alleged conflict of inter­
est. Those allegations do not involve activities by the
County or the Association. Rather, they involve activi­
ties by the trial court. Nevertheless, the County and
the Association would presumably want to defend
against those allegations in order to protect their judg­
ment in the underlying case. (See Save Our Bay, Inc.
v. San Diego Unified Port Dist. (1996) 42 Cal.App.4th
686, 692-693 [“ A person is an indispensable party if
his or her rights must necessarily be affected by the
judgment’”]; § 389.)
Because the jurisdictional allegations pertain to
the trial court’s activities, they are not targeted at the
Association’s or the County’s free speech or petitioning
rights. Therefore, the trial court erred by concluding
the jurisdictional allegations arise from the Associa­
tion’s and the County’s free speech or petitioning

App. 11
rights. (§ 425.16, subd. (b)(1).) We will reverse the trial
court’s striking of the complaint as it pertains to the
alleged jurisdictional defects involving the trial court’s
activities. (Baral, supra, 1 Cal.5th at p. 393 [portion of
a complaint may be stricken via an anti-SLAPP mo­
tion].)
D. LIKELIHOOD OF PREVAILING
We now turn to the second prong of the antiSLAPP analysis, which concerns Hudack’s likelihood
of prevailing on the merits. We focus only on the eq­
uity/fraud portion of the complaint due to our conclu­
sion that the jurisdiction piece of the complaint does
not concern a protected activity by the Association or
the County.
The second-prong is akin to a summary judgment
analysis. (Sweetwater Union High School Dist. u. Gilbane Building Co. (2019) 6 Cal.5th 931, 940.) “The
court does not weigh evidence or resolve conflicting fac­
tual claims. [Our] inquiry is limited to whether the
plaintiff has stated a legally sufficient claim and made
a prima facie factual showing sufficient to sustain a
favorable judgment. [We] accept!] the plaintiff’s evi­
dence as true, and evaluate!] the defendant’s showing
only to determine if it defeats the plaintiff’s claim as a
matter of law. [Citation.] “[C]laims with the requisite
(Ibid.)
minimal merit may proceed.
“The extrinsic/intrinsic fraud rule is a doctrine de­
veloped in courts of equity governing the basis for suc­
cessful collateral attack on a final judgment by way of

App. 12

(

an independent proceeding. The rule is that fraud in­
ternal to the adversary proceeding, such as perjury
committed during trial or error or mistake during the
trial, is intrinsic and is not a basis for relief; but fraud
that prevented the trial of a claim or prevented the de­
frauded party from getting into court at all, is extrinsic
to the proceeding and is a basis for relief.” (Los Angeles
Airways, Inc. v. Hughes Tool Co. (1979) 95 Cal.App.3d
1,7.)
Hudack’s oppositions to the anti-SLAPP motions
are not included in the record. The trial court re­
marked that Hudack failed to provide admissible evi­
dence in support of his two oppositions. Hudack’s
complaint is verified. In the complaint, Hudack alleges
fraud that occurred during the trial and attorneys’ fees
hearings in the prior case. Thus, Hudack describes in­
trinsic fraud because Hudack participated in court pro­
ceedings, but fraud allegedly occurred during those
proceedings. Hudack has not demonstrated a prima fa­
cie case of extrinsic fraud. Therefore, Hudack has not
demonstrated a likelihood of prevailing on his equitybased collateral attack. The trial court did not err by
granting the anti-SLAPP motions in relation to the eq­
uity/fraud assertions against the County and the Asso­
ciation.
E. JURISDICTION
Hudack contends the trial court did not have ju­
risdiction to consider an anti-SLAPP motion because
he was only attacking jurisdictional defects in the prior

App. 13
judgment, thereby limiting the trial court to examining
the judgment roll in the underlying case.
As explained ante, there is more than one type of
collateral attack. One type of collateral attack is juris­
dictional, wherein a judgment will be set aside if it ap­
pears invalid on the face of the judgment roll. A second
type of collateral attack is equitable, wherein a judg­
ment will be set aside if it appears it was the product
of extrinsic fraud. (F.E.V., supra, 15 Cal.App.5th at
p. 471.)
Hudack’s claims against the Association and the
County are based upon fraud. The complaint is entitled
“Independent Action in Equity to Set Aside Judgments
From RIC450529 and for Equitable Relief.” (All caps
and boldface omitted.) The title of the complaint and
the substance of the allegations against the Associa­
tion and the County reflect the complaint was brought
in equity and is based upon alleged fraud. Thus, we
are not persuaded that the trial court was limited to
examining the judgment roll for jurisdictional defects
because Hudack did not limit his allegations to the
judgment roll.
F.

PROCEDURE

Hudack contends the trial court erred by failing to
follow legal procedures. Hudack asserts the trial court
could not dismiss his collateral attack without first
looking at the judgment in the underlying case. It is
unclear if Hudack is referring to the jurisdiction sec­
tion of the complaint or equity/fraud section of the

\

App. 14
complaint. Because we are reversing the ruling as it
pertains to the jurisdiction allegations, we will address
the contention with the presumption that it pertains
to the equity/fraud allegations.
Hudack’s opportunity to have the trial court exam­
ine the prior judgment occurred within the secondprong of the anti-SLAPP analysis. During that second
step, Hudack should have presented the trial court
with evidence of fraud as it pertained to the prior judg­
ment. Hudack’s oppositions to the anti-SLAPP motions
are not included in the record on appeal. The trial court
remarked that Hudack did not present admissible
evidence in opposition to the Association’s and the
County’s anti-SLAPP motions. Thus, Hudack had op­
portunities to have the trial court look at the judgment
in the prior case, but it appears he failed to seize those
opportunities.
G. UNDERSTANDING THE LAW
Hudack contends the trial court erred because it
failed to understand the law. Hudack asserts, “A collat­
eral attack on void judgments is not an action in torts
seeking damages. ... A court considering a collateral
attack is not required to assign blame or point an ac­
cusing finger when confirming void judgments.”
A case on point is Church of Scientology u. Willersheim [sic] (1996) 42 Cal.App.4th 628 (Church ofScientology) (disapproved on other grounds in Equilon Enter­
prises v. Consumer Cause, Inc. (2002) 29 Cal.4th 53, 68,
fn. 5). In Church of Scientology, the Church brought a

App. 15
“complaint attacking] the judgment Wollersheim had
obtained against the Church in a prior action.” {Id. at
p. 636.) Wollersheim brought an anti-SLAPP motion,
and the trial court granted the motion. On appeal, the
Church asserted the trial court erred because “its ac­
tion against Wollersheim is not a SLAPP suit.” {Ibid.)
Specifically, the church argued it was attack­
ing the judgment, not Wollersheim, and therefore the
Church’s claims did “not ‘arise’ from any act in further­
ance of Wollersheim’s right of petition or free speech.”
{Church of Scientology, supra, 42 Cal.App.4th at
p. 648.) The appellate court concluded “[t]he Church’s
approach to the interpretation of section 425.16 is too
restrictive.” {Ibid.) The appellate court explained that
the anti-SLAPP statute applies “to any direct attack
on the judgment in the prior action, which resulted
from Wollersheim’s petition activity.” {Ibid., italics
omitted.)
In the instant case, Hudack is asserting that he is
attacking a judgment, not the Association and the
County, and therefore the trial court erred by applying
the anti-SLAPP law. Church of Scientology is an onpoint case explaining why Hudack’s argument is incor­
rect. Hudack is attacking the judgment by asserting
the Association and the County lied in the underlying
case. Therefore, Hudack is attacking the Association’s
and the County’s petitioning activity and free speech
by asserting they made fraudulent statements—he is
not merely attacking a judgment. As a result, we find
Hudack’s argument to be unpersuasive.

App. 16
Hudack contends the trial court did not follow the
law because the trial court concluded the underlying
judgments were final and therefore valid. In granting
the Association’s anti-SLAPP motion, the trial court
wrote, “[Hudack] fails to meet his burden on the second
prong of the analysis. [Hudack] presents no admissible
evidence or argument that he has a reasonable proba­
bility of prevailing on his contention that the Judg­
ment in Hudack v. Siggard, et al., is void despite the
finality of the judgment in that matter, after an ap­
peal.”
The trial court did not conclude that the judgment
was valid because it was final. The trial court ex­
plained that Hudack (1) failed to present evidence to
demonstrate a probability of prevailing; and (2) failed
to provide an argument to support his position that the
judgment was void despite it being final.
H. LACK OF PRECEDENT
Hudack contends the trial court’s rulings are with­
out precedent. Hudack asserts he could find no cases
wherein “a collateral attack on void judgments is a
SLAPP suit.” As set forth ante, Church of Scientology
is a case wherein an anti-SLAPP motion was granted
against a complaint that was seeking to have a prior
judgment set aside. (Church of Scientology, supra, 42
Cal.App.4th at p. 648.) Thus, there is precedent for an
anti-SLAPP motion being granted against a complaint
that seeks to have a prior judgment set aside.
Hudack asserts that if a collateral attack can be
subject to an anti-SLAPP motion then “there could

App. 17
never be a collateral attack on void judgments and a
vast body of decisional law would have to be scrapped.”
The anti-SLAPP statute only weeds out meritless
claims. (Baral, supra, 1 Cal.5th at p. 384.) If a party
has a meritorious collateral attack, then the antiSLAPP statute would not cause the case to be dis­
missed. In other words, meritorious collateral attacks
could proceed despite the anti-SLAPP statute. There­
fore, we are not persuaded that the anti-SLAPP stat­
ute will cause the cessation of all collateral attacks.
DISPOSITION
The judgments are reversed in relation to the por­
tion of the complaint that asserts jurisdictional de­
fects in the underlying judgment. In all other respects,
the judgments are affirmed. The parties are to bear
their own costs on appeal. (Cal. Rules of Court, rule
8.278(a)(3).)
NOT TO BE PUBLISHED IN OFFICIAL REPORTS
MILLER
J.
We concur:
RAMIREZ
P. J.
CODRINGTON
J.

App. 18
SUPERIOR COURT OF
THE STATE OF CALIFORNIA
FOR THE COUNTY OF RIVERSIDE
LARRY J. HUDACK
Plaintiff,
v.
LA CRESTA PROPERTY
OWNERS ASSOCIATION,
and WAYNE SIGGARD,
and RIVERSIDE COUNTY,
and CRAIG ROSSELL, and
KRAMER, DE BOER &
KEANE, LLP
Defendant.

CASE NO.: RIC1724414
Assigned to: Hon. Randall
S. Stamen (Law and
Motion purposes only)
Dept. 07
[PROPOSED]
JUDGMENT OF
DISMISSAL
(Filed Mar. 27, 2018)
Complaint Filed:
December 28, 2017
Trial Date: None

On December 28,2017, Plaintiff LARRY J. HUDACK
(“Plaintiff”) filed a complaint alleging two causes of
action for to set aside judgments and equitable relief
(“Complaint”) against Defendants LA CRESTA PROP­
ERTY OWNERS ASSOCIATION (“Defendant” and/or
“Association”).
On January 30, 2018, Defendant filed a Special
Motion to Strike Plaintiff’s Complaint (“Anti-SLAPP
Motion”).
On March 6, 2018, the hearing on Defendant’s
Anti-SLAPP came on regularly for hearing. The Court
determined that of a First Amended Complaint after
the Anti-SLAPP Motion did not render the Anti-SLAPP

App. 19
Motion moot. The Court determined that Defendant
met the first prong of the analysis under Civil Code
section 425.16(e) because the Complaint concerns an
underlying action between the parties, Hudack v. Siggard, et al. (Case No. RIC450529). Plaintiff failed to
meet his burden on the second prong of the analysis in
presenting no admissible evidence or argument that he
as a reasonable probability of prevailing on his conten­
tion that the judgment in Hudack v. Siggard, et al. is
void despite the finality of the judgment in that matter
after appeal. The claims raised in the Compliant are
also subject to the litigation privilege because the
Complaint challenges the actions of Defendant and its
attorney in its claim for fees in the Hudack v. Siggard,
et al. matter.
Based on the foregoing, the Court hereby orders
the following:
1.

Defendant LA CRESTA PROPERTY OWNERS
ASSOCIATION’S Special Motion to Strike is
GRANTED.

2.

Defendant LA CRESTA PROPERTY OWN­
ERS ASSOCIATION is dismissed as a defend­
ant in the instant action.

3.

As the prevailing party Defendant LA CRESTA
PROPERTY OWNERS ASSOCIATION is awarded
attorney’s fees and costs in an amount to be
determined by noticed motion.

IT IS SO ORDERED.

App. 21
Court of Appeal, Fourth Appellate District,
Division Two - No. E070144
S257022
IN THE SUPREME COURT OF CALIFORNIA
En Banc

LARRY J. HUDACK, Plaintiff and Appellant,
v.
LA CRESTA PROPERTY OWNERS ASSOCIATION
et al., Defendants and Respondents.

(Filed Sep. 18, 2019)
The petition for review is denied.
The request for an order directing publication of
the opinion is denied.
CANTIL-SAKAUYE
Chief Justice

\

App. 22

NOTICE OF ENTRY OF JUDGMENT OR ORDER
ATTORNEY OR PARTY WITHOUT ATTORNEY FOR COURT USE ONLY

(Name, State Bar number, and address):
SANDRA CALIN [SBN 100444]
KRAMER, DEBOER & KEANE
21860 BURBANK BLVD.
SUITE 370
WOODLAND HILLS, CA 91367
TELEPHONE NO.: 818-657-0255
FAX no. (optional): 818-657-0256
E-MAIL address (optional):
ATTORNEY FOR (Name): Defendant,
LA CRESTA PROPERTY
OWNERS ASSOC.
SUPERIOR COURT OF CALIFORNIA,
county of RIVERSIDE
STREET ADDRESS:

4050 MAIN STREET
MAILING ADDRESS:
CITY AND ZIP CODE:

RIVERSIDE, CA 92501-3704
BRANCH NAME:

RIVERSIDE - CENTRAL
plaintiff/petitioner:

MARIANNE S. HUDACKAND
LARRY HUDACK
defendant/respondent:
WAYNE SIGGARD; MONTELEONE GRADING ET AL.

SEP 26 2014

App. 23
NOTICE OF ENTRY OF JUDGMENT CASE NUMBER:
OR ORDER
RIC450529
(Check one): [HI unlimited CASE
(Amount demanded
exceeded $25,000)
□ LIMITED CASE

(Amount demanded
was $25,000 or less)
TO ALL PARTIES:
1. A judgment, decree, or order was entered in this
action on {date):September 11, 2014
2. A copy of the judgment, decree, or order is attached
to this notice.
Date: September 11, 2014
SANDRA CALIN
(type or print name of
M ATTORNEY □ PARTY
WITHOUT ATTORNEY)

►

Sandra Calin
(signature)

App. 24
JEFFREY S. KRAMER, State Bar # 094049
SANDRA CALIN, State Bar #100444
KRAMER, DEBOER & KEANE
A Limited Liability Partnership
Including Professional Corporations
21860 Burbank Boulevard, Suite 370
Woodland Hills, California 91367
Telephone: (818) 657-0255
Facsimile: (818) 657-0256
jkramer@kdeklaw.com
scalin@kdeklaw.com
Attorneys for Defendant, LA CRESTA PROPERTY
OWNERS ASSOCIATION
SUPERIOR COURT OF
THE STATE OF CALIFORNIA
FOR THE COUNTY OF RIVERSIDE
MARIANNE S. HUDACK CASE NO. RIC 450529
AND LARRY J. HUDACK, Action Filed: May 25,2006)
INDIVIDUALLY & AS
STIPULATION
TRUSTEES OF THE
LARRY J. AND MARIANNE REGARDING AWARD
OF ATTORNEY’S FEES
S. HUDACK TRUST
AND COSTS IN FAVOR
DATED JULY 3,1997,
OF DEFENDANT LA
Plaintiffs,
CRESTA PROPERTY
OWNERS ASSOCIATION;
v.
ORDER
WAYNE SIGGARD;
MONTELEONE GRADING; (Filed Sep. 11, 2014)
COUNTY OF RIVERSIDE;
COUNTY OF RIVERSIDE
PLANNING DEPARTMENT,

App. 25
LA CRESTA PROPERTY
OWNERS ASSOCIATION;
and DOES 1 through
100, inclusive
Defendants.
IT IS HEREBY STIPIULATED by and between
plaintiffs and Defendant LA CRESTA PROPERTY
OWNERS ASSOCIATION [hereinafter referred to as
LCPOA] through their counsel of record herein:
THAT the LCPOA was awarded Judgment by way
of a jury verdict, which was filed on October 21, 2010.
The Motion for an Award of Attorney’s Fees and Costs
was heard on February 22, 2011, and the Court granted
the Motion, awarding attorney’s fees in the amount of
$474,133.50 and costs in the amount of $69,783.00, for
a total of $543,916.50; payable to the carrier for the
LCPOA, as well as the amount of $59,447.00 for attor­
ney’s fees incurred by the LCPOA personally, for their
own counsel;
THAT defendant LCPOA is entitled to interest
on the amounts awarded on February 22, 2011 from
that date, through August 25, 2014. The interest on the
amount of $543,916.50 is $190,743.32, for a total of
$734,659.82 owed to the insurance carrier for the
LCPOA, New Hampshire Insurance Company. Further,
the interest on the amount of $59,447.00 is $20,847.17,
for a total of $80,294.17 owed directly to the LCPOA.
IT IS FURTHER STIPULATED that the LCPOA
is entitled to attorney’s fees and costs following the

App. 26
post-judgment award of attorney’s fees in the amount
of $80,000.00, as well as costs following appeal in the
amount of $3,181.00 pursuant to the Memorandum of
Costs filed on February 3, 2014. Therefore the total
amount owed to the insurance carrier for the LCPOA
is $817,840.82.
DATED: September 9, 2014‘
BLASSER LAW
BY: /s/ William Blasser
WILLIAM BLASSER
Attorneys for Plaintiffs,
MARIANNE S. HUDACK
AND LARRY J. HUDACK
INDIVIDUALLY & AS
TRUSTEES OF THE
LARRY J. AND MARIANNE
S. HUDACK TRUST
DATED JULY 3,1997
DATED: September 10, 2014
KRAMER, DEBOER & KEANE
BY: /s/ Jeffrey S. Kramer________
JEFFREY S. KRAMER
SANDRA CALIN
Attorneys for Defendant,
LA CRESTA PROPERTY
OWNERS ASSOCIATION

